No. 20-564

In the Supreme Court of the United States
RODNEY CARLISLE, JR.,
Petitioner,
v.
COMMONWEALTH OF KENTUCKY,
Respondent.
CERTIFICATE OF WORD COUNT
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the accompanying Brief of Amici Curiae Professors of Criminal Law and Criminal Procedure in
Support of Petitioner, which was prepared using Century Schoolbook 12-point typeface, contains 2,619 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d). This certificate was prepared in reliance on the wordcount function of the word-processing system (Microsoft Word) used to prepare the
document.
I declare under penalty of perjury that the foregoing is true and correct.
DATED this 21st day of December, 2020.
/s/ Michael A. Vatis
Michael A. Vatis
Steptoe & Johnson LLP
1114 Avenue of the Americas
New York, New York 10036
(212) 506-3900
mvatis@steptoe.com
Counsel for Amici Curiae

